     Memorandum from the Office of the Inspector General



     August 2, 2010

     Robert M. Deacy, Sr., LP 5D-C

     FINAL REPORT – INSPECTION 2009-12910-01– PEER REVIEW OF STABILITY
     ANALYSIS OF DIKE C AT KINGSTON FOSSIL PLANT



     Attached is the subject final report for your review and action. Your written comments,
     which address your management decision and/or actions taken, have been included in the
     report. We note in the report that some unresolved issues remain. Specifically:

     •   Marshall Miller & Associates (Marshall Miller) states that existing riprap placements
         are indicative of repairs to existing slopes and need to be identified on record
         drawings. We deem that further consideration should be given to updating the
         existing-condition drawings.
     •   Please provide final action notification regarding installation of additional piezometers
         at or near STA 138+27 and STA 149+14 as agreed to by TVA and Stantec.
     •   Please provide Stantec’s staged-construction analysis considering undrained shear
         strengths with the Stage 1 Construction – Segment “C” or “D” Dike C Buttress
         documents for Marshall Miller’s review.

     The Office of the Inspector General (OIG) contracted with Marshall Miller to conduct this
     review. All work pertaining to this review was conducted by Marshall Miller. The OIG
     relied on Marshall Miller’s processes and procedures for quality control of the attached
     report. Information contained in this report may be subject to public disclosure. Please
     advise us of any sensitive information in this report that you recommend be withheld.

     If you have any questions, please contact Greg R. Stinson, Project Manager, at
     (865) 633-7367 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
     (423) 785-4810. We appreciate the courtesy and cooperation received from your staff
     during this review.



(for) Robert E. Martin
      Assistant Inspector General
       (Audits and Inspections)
      ET 3C-K

     GRS:NLR
     Attachment
     cc: See page 2
Robert M. Deacy, Sr.
Page 2
August 2, 2010



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Peyton T. Hairston, Jr., WT 7B-K
      John C. Kammeyer, LP 5D-C
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      David R. Mould, WT 7B-K
      Emily J. Reynolds, OCP 11-NST
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3A-C
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12910-01

     Mr. John Montgomery, Stantec
                                       Letter Report
    Technical Rebuttal to May 11, 2010 TVA Response to OIG Draft Inspection
2009-12910-01 – Peer Review of Stability Analysis of Dike C at Kingston Fossil Plant

                  Tennessee Valley Authority Kingston Fossil Plant (KIF)
                                  Harriman, Tennessee




                                                                        Prepared for:




                                                            TVA Office of the Inspector General
                                                                 Knoxville, Tennessee



                                                                           Prepared by:




                                                                  Project No.: TVA106-08

                                                                      August 2, 2010




       Marshall Miller & Associates, Inc.
       ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

       5900 Triangle Drive
       Raleigh, NC 27617
       Tel (919) 786-1414 • Fax (919) 786-1418
       www.mma1.com
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                          August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 1


Item 1:       TITLE PAGE

Title of Report

Peer Review of Stantec Consulting Services, Inc.
Report of Geotechnical Exploration and Slope Stability for Dike C
Tennessee Valley Authority Kingston Fossil Plant (KIF)

Project Location

The project site is located in Harriman, Roane County, Tennessee, and is situated on a peninsula
formed by the confluence of the Emory River and the Clinch River.



Qualified Persons




___________________________                          ___________________________
William S. Almes, P.E.                               William M. Lupi, P.E.
TVA OIG Contract Manager                             Project Engineer
Senior Engineer & Director of                        Marshall Miller & Associates, Inc.
Geotechnical Services
Marshall Miller & Associates, Inc.




___________________________                          ___________________________
Edmundo J. Laporte, P.E.                             Christopher J. Lewis, P.E.
Senior Engineer                                      Principal Engineer
Marshall Miller & Associates, Inc.                   D’Appolonia, Engineering Division of
                                                     Ground Technology, Inc.



Effective Date of Report
August 2, 2010
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 2


Item 2:        EXECUTIVE SUMMARY

       The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller) to conduct a peer review of the report
entitled “Report of Geotechnical Exploration and Slope Stability for Dike C” (Dike C Report)
prepared by Stantec Consulting Services, Inc. (Stantec) of Lexington, Kentucky. In summary, it
is Marshall Miller’s opinion that Stantec generally performed a reasonable scope of investigation
for the portion of Dike C covered by its report and applied appropriate investigative methods and
evaluation techniques. However, Stantec applied site-wide characterization and application of
shear strength parameters even though areas of significantly weaker material were identified. In
addition, there is a lack of information on seepage and material conditions nearer the
downstream toe of Dike C, which causes additional uncertainty about the Stantec study and its
associated conclusions and opinions about the Dike C conditions.

       The in-situ and laboratory testing programs applied appropriate and complementary
suites of laboratory tests to characterize the dike fill, native foundation soils, and ash materials in
the primary areas of interest for Dike C. The available body of site-specific data is considerable;
however, Stantec applied a site-wide perspective in the characterization and application of shear
strength properties for their analyses of the five evaluated slope stability sections along
thousands of feet of containment dike. The Stantec approach underutilized the exploration data
and may have masked the existence and/or diminished the significance of weak soil layers in
particularly critical reaches of the dike system. Consequently, Marshall Miller believes that
Stantec’s evaluations overstate the factor of safety for global slope stability along more critical
reaches of the dike system and are more a representation of the site-wide average conditions.
Marshall Miller is not suggesting that a stability failure is imminent under the existing
conditions, but rather that the margin of safety along certain sections of the dike system is less
than suggested by the Stantec calculated factor of safety of around 1.5 for deep-seated failures.
The significance of this observation is dependent on the approach and conservatism that is
applied in the design of more immediate stability enhancements to the dike system (i.e., the
interim stability enhancements that might be designed based on drained analyses). TVA and
Stantec believe the planned remediations are sufficient to address all concerns regardless of
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 3
differences in opinion on methodology used for slope stability evaluations. Marshall Miller has
not evaluated the planned remediations at this time but will conduct a peer review of the Dike C
remediations in the near future.

Management’s Response to Draft Report

To address this report, TVA management had Stantec and AECOM review and respond to the
findings of this report. TVA management and its contractors disagreed with many of the
findings and recommendations in this report. Stantec responded that, “It is Stantec’s
professional opinion that the scope of geotechnical exploration, laboratory testing program, and
subsequent stability analysis were performed in accordance with standard industry practice using
the degree of care and skill normally exercised by competent members of the engineering
profession. In addition, it is our opinion that the results adequately characterize the structural
stability of Dike C.” AECOM noted that, “Stantec selected the appropriate number of cross-
sections and used, in our opinion standard design drained friction angles of safety for this
structure.” Both Stantec and AECOM responded in detail to each finding and recommendation.
For complete responses please see appendices A – TVA Transmittal Memo, B – Stantec’s
Response, & C –AECOM’s Response.

OIG and Marshall Miller Assessment of Management’s Comments to Draft Report

Marshall Miller provided additional comments in response to AECOM and Stantec responses. In
summary, Marshall Miller stands by the findings in the report and disagrees with some of the
methodologies used by Stantec to evaluate Dike C. However, they feel that the Dike C
improvement planned actions, referenced in the Stantec and AECOM responses, address or will
address most of their findings and recommendations (Marshall Miller is completing an
evaluation of the Dike C remediations which will be addressed in a separate report). The
remaining findings and recommendations not fully addressed are not considered substantial and
should not affect the stability of the dike. For Marshall Miller’s complete response please see
appendix D.

TVA management requested two engineering consultants respond to Marshall Miller’s report.
Stantec performed the Dike C study that Marshall Miller was tasked by the OIG to peer review.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                          August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 4
AECOM was also asked to respond to Marshall Miller’s peer review. It is important to note that
AECOM performed the root cause analysis study of the Kingston failure. Some of the opinions
included in their response were also rendered in the root cause analysis study. A change in those
opinions could have raised questions about the accuracy of the root cause analysis study.
                                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                                              Tennessee Valley Authority - Office of the Inspector General
                                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                  • Page 5

Item 3:          TABLE OF CONTENTS

ITEM 1:          TITLE PAGE ............................................................................ 1
ITEM 2:          EXECUTIVE SUMMARY .......................................................... 2
ITEM 3:          TABLE OF CONTENTS ............................................................. 5
ITEM 4:          INTRODUCTION AND BACKGROUND ..................................... 6
ITEM 5:          MARSHALL MILLER PROJECT TEAM ................................... 7
ITEM 6:          SCOPE OF SERVICE & BACKGROUND ................................... 8
        6.1.     SCOPE OF SERVICE ..................................................................................................8
        6.2.     BACKGROUND ..........................................................................................................9
ITEM 7:          SLOPE STABILITY ANALYSES .............................................. 11
        7.1.     FINDINGS ................................................................................................................11

        7.2.     R ECOMMENDATIONS .............................................................................................14
ITEM 8:          SEEPAGE ANALYSES............................................................. 16
        8.1.     F INDINGS................................................................................................................16
        8.2.     R ECOMMENDATIONS .............................................................................................17
ITEM 9:          DIKE C EMBANKMENT REMEDIATION WORK PLAN ........ 19
        9.1.     C OMMENTS AND SUGGESTIONS ............................................................................19


APPENDIX

MEMORANDUM DATED MAY 11, 2010, FROM ROBERT M. DEACY
TO ROBERT E. MARTIN................................................................................... APPENDIX A
MEMORANDUM DATED MAY 5, 2010, FROM THOMAS CRILLY
AND DON W. FULLER II TO JOHN C. KAMMEYER .................................. APPENDIX B
MEMORANDUM DATED APRIL 30, 2010, FROM WILLIAM H. WALTON
AND WILLIAM BUTLER TO JOHN C. KAMMEYER ................................. APPENDIX C
MEMORANDUM DATED JULY 20, 2010, FROM WILLIAM S. ALMES,
CHRISTOPHER J. LEWIS, EDMUNDO J. LAPORTE, AND
AARON J. ANTELL TO GREGORY C. JAYNES .......................................... APPENDIX D
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                          August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 6


Item 4:        INTRODUCTION AND BACKGROUND

       The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller) to conduct a peer review of the report
entitled “Report of Geotechnical Exploration and Slope Stability for Dike C” (Dike C Report)
prepared by Stantec Consulting Services, Inc. (Stantec) of Lexington, Kentucky. At the request
of TVA, this work was performed by Stantec following the ash dredge cell failure which
occurred at the TVA Kingston Fossil Plant (Kingston) near Harriman, Tennessee, on
December 22, 2008.

       During its engagement, Marshall Miller met with and participated in teleconferences with
various representatives of the OIG, TVA, Stantec, and AECOM, among others, and was
provided access to various documents, including subsurface exploration data, laboratory testing
results, engineering calculations and analyses, engineering design drawings, photographs, aerial
maps, and other pertinent documentation which were reviewed during the peer review.

       This report presents the following:
           •   Marshall Miller Project Team;
           •   Description of Marshall Miller’s scope of work and background on Stantec’s
               evaluations;
           •   Findings and recommendations related to Marshall Miller’s review of
               Stantec’s slope stability and seepage analyses; and
           •   Comments and suggestions regarding the Kingston facility’s Dike C
               Embankment Remediation Work Plan.
                                                                                 Peer Review of Stantec Consulting Services, Inc.
                                                          Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                                     Tennessee Valley Authority - Office of the Inspector General
                                                                    August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                          • Page 7


Item 5:            MARSHALL MILLER PROJECT TEAM

          Marshall Miller, an employee-owned Engineering News-Record Magazine (ENR) Top
500 company, began offering geologic services to the mining industry in 1975 and has provided
a full range of related services to the mining, utility, financial, governmental, and legal industries
for 33 years. Today, Marshall Miller employs nearly 200 engineers, geologists, scientists, and
other professionals working from regional offices in ten states.

          Marshall Miller subcontracted with D’Appolonia, Engineering Division of Ground
Technology, Inc., of Monroeville, Pennsylvania, for their additional expertise with tailings
impoundments and dams, problem ground conditions, and forensic investigations.

          The Marshall Miller Project Team is comprised of the following professionals:
          •   Mr. Peter Lawson – Executive Vice President & Principal-in-Charge.
          •   Mr. William S. Almes, P.E. – Director of Geotechnical Services & Contract
              Manager for TVA OIG.
          •   Mr. Edmundo J. Laporte, P.E. – Senior Engineer.
          •   Mr. William M. Lupi, P.E. – Project Engineer.
          •   Mr. Richard G. Almes, P.E. – Principal Geotechnical Engineer.
          •   Mr. Christopher J. Lewis, P. E. – Principal Geotechnical Engineer 1.
          •   Mr. Aaron J. Antell, P.E. – Project Engineer1.




1
    Christopher J. Lewis, P.E. and Aaron J. Antell, P.E. are Geotechnical Subconsultants of Marshall Miller and are
    employed by D’APPOLONIA, ENGINEERING DIVISION OF GROUND TECHNOLOGY, INC., Monroeville, Pennsylvania.
                                                                         Peer Review of Stantec Consulting Services, Inc.
                                                  Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                            August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 8

Item 6:        SCOPE OF SERVICE & BACKGROUND

6.1.      SCOPE OF SERVICE
       Marshall Miller was engaged to provide a technical peer review of the stability analyses
of Dike C at the TVA Kingston Fossil Plant. Marshall Miller did not conduct a parallel study
(field investigation, laboratory testing, and engineering analyses) to the Stantec study of the
existing Dike C conditions, but rather, Marshall Miller largely relied on the Stantec field
investigation and test data to formulate the findings presented in this report. However, for
comparison with the Stantec study and to support the findings of this report, Marshall Miller did
evaluate a sampling of the geotechnical data to independently characterize the properties of the
alluvial foundation soils. Marshall Miller also conducted comparative slope stability analyses
for a selected reach of the dike system as described under Item 7 below. Stantec and TVA
consulted with other qualified geotechnical engineering consultants during the evaluation of
Dike C.

       Marshall Miller completed a thorough peer review of Stantec’s "Report of Geotechnical
Exploration and Slope Stability for Dike C" (Dike C Report). If more current versions of these
documents exist, Marshall Miller was not aware of such changes. As such, Marshall Miller’s
professional opinions are based principally on the review of the above-referenced documents and
discussions with TVA, Stantec, AECOM, and other TVA consultants.

       In preparing this report, the professional services of Marshall Miller have been utilized,
findings obtained, and conclusions made per generally accepted engineering principles and
practices. Marshall Miller reserves the right to amend and supplement this report based on new
or additional information that might be obtained or become known. If OIG, TVA, TVA’s
consultants, or others discover additional information pertinent to the Kingston ash pond failure
or related studies, Marshall Miller requests the opportunity to review the information for
significance relative to Marshall Miller’s findings and conclusions as presented herein.
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 9

6.2.       BACKGROUND
       The portion of Dike C reviewed by Stantec consists of the existing, approximately 5,600-
foot long, two-tiered dike embankment (upstream staged configuration) located at the southern
and southeastern limit of the coal combustion by-products disposal facility. This embankment
consists of an initial starter clay dike constructed on alluvial foundation soils, in most sections
raised slightly with constructed ash, and a raised clay dike constructed by upstream techniques
over impounded, hydraulically placed/sluiced ash. The initial starter dike was constructed in the
1950s, which provided an embankment crest at approximately Elevation (El.) 748 feet. Past
TVA drawings and reports indicate that portions of the Dike C starter embankment are founded
over a layer of broken shale within the Watts Bar Reservoir. The shale was encountered during
the subsurface exploration phase of the Stantec study and these findings are depicted in two of
the geotechnical cross-sections.

       The raised clay dike, reportedly constructed in the 1970s, increased the Dike C crest to
El. 765. The raised dike was constructed of clayey soils, partly on the upstream face of the
starter dike and out over hydraulically placed ash. According to available design drawings,
neither dike stage contains regular internal drains, relief wells, or other specific features for
seepage control.

       Stantec’s field investigation program was performed along the remaining Dike C
embankment. This included the portion of Dike C east and south of Dike D that remained
following the December 22, 2008 failure (refer to Figure 1 of the referenced Stantec Dike C
Report). The exploratory drilling work was performed between March 17 and May 28, 2009.
Stantec’s subsurface investigation and instrumentation program included the following:

       Borings and Instrumentation:

       •    Completion of 74 hollow-stem soil borings at 54 locations;
       •    Installation of 6 slope inclinometers; and
       •    Installation of 20 standpipe piezometers.
                                                                 Peer Review of Stantec Consulting Services, Inc.
                                          Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                     Tennessee Valley Authority - Office of the Inspector General
                                                    August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                        • Page 10
Geotechnical Testing and Sampling:

•   Performance of 1,844 Standard Penetration Tests;
•   Collection of 131 undisturbed Shelby-tube samples;
•   Collection of 20 feet of rock cores (per boring)at 9 locations; and
•   Performance of 20 cone penetrometer tests.
                                                                           Peer Review of Stantec Consulting Services, Inc.
                                                    Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                              August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 11

Item 7:         SLOPE STABILITY ANALYSES

       Marshall Miller reviewed the results of Stantec’s Dike C slope stability analyses,
including subsurface investigation results, soil laboratory test data, and material shear strength
properties. In general, it is Marshall Miller’s opinion that the in-situ and laboratory testing
programs applied appropriate and complementary suites of tests to characterize the dike fill,
native foundation soils, and ash materials in the primary areas of interest for Dike C. However,
Stantec applied a site-wide perspective in the characterization and application of shear strength
properties that led to an overstatement of the factor of safety for global slope stability along more
critical reaches of the dike system.

7.1.       FINDINGS

       In Marshall Miller’s opinion, the slope stability analyses methodology applied by Stantec
led to an overstatement of the factor of safety for global slope stability along more critical
reaches of the dike system. Specifically, Marshall Miller noted the following items of concern
during the peer review:

       •    Stantec developed site-wide shear strength parameters based on site-specific
            exploration and laboratory data. The characterization and application of site-wide
            shear strength parameters underutilizes the exploration data and risks masking (or
            discounting) the existence and significance of particularly critical reaches of the
            containment dike system. The Stantec approach does not fully capture the variations
            in the factors of safety due to potential variability in the soil shear strengths.

       •    It is Marshall Miller’s professional opinion that in some instances Stantec selected
            shear strengths/friction angles that were higher than should have been used. This led
            to an overstated minimum factor of safety. Instances where the selected shear
            strengths were too high include:

            o At Station 132+37, Stantec used a friction angle of 27 degrees for most of the
                alluvial foundation soils and 28 degrees for a thin, sensitive silt/clay layer within
                the foundation. The alluvial foundation soils (i.e., soil below the estimated pre-
                                                                                                    Peer Review of Stantec Consulting Services, Inc.
                                                                             Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                                                        Tennessee Valley Authority - Office of the Inspector General
                                                                                       August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                           • Page 12
                        existing ground line) through this area consist of (1) silty sand to sandy silt (as
                        shown in Table 9 of the Dike C Report) and (2) high and low plasticity clay with
                        relatively low standard penetration tests blow counts (N-values) to no
                        measureable blow count (i.e., standard penetration tests blow counts equivalent to
                        weight of hammer (WOH) or weight of rods (WOR)) and low cone penetrometer
                        test correlated friction angles (significantly lower than 27 degrees). These
                        findings raise questions about the applicability and reliability of such a
                        correlation, as it is most pertinent to coarse-grained soils with a measurable blow
                        count. In the professional opinion of Marshall Miller, the 27 to 29 degree range
                        of drained friction angle for the foundation soils does not encompass
                        representative values along more critical reaches of the dike system, where the
                        drained friction angle could be significantly lower. Based on Marshall Miller’s
                        review of the exploration data, particularly within the subject weaker link reach of
                        the dike containment system, zones of cohesive (CL 2, CH 3, and ML4) soil exist in
                        the foundation. Consistent with typical practice, standard penetration tests
                        correlations are applicable to non-cohesive soils.

                        Due to the overall weakness of this section of the dike, Marshall Miller
                        recalculated the factor of safety at Station 132+37. Stantec calculated a minimum
                        factor of safety for failure through the foundation soils equal to 1.47 at Station
                        132+37. As noted above, Stantec used a drained friction angle of 27 degrees for
                        the alluvial foundation soils and 28 degrees for a thin, sensitive silt/clay layer
                        within the foundation. Marshall Miller determined a representative range of
                        23 to 25 degrees drained friction angle for the foundation soils was appropriate.
                        Subsequently, Marshall Miller recalculated the factor of safety for the section at
                        Station 132+37 and determined it to be 1.26 to 1.35. Lower drained friction



2
    Inorganic clays of low to medium plasticity, gravelly clays, sandy clays, silty clays, lean clays. Das, Braja M. Principles of Geotechnical
    Engineering, Boston: PWS Publishers, 1985, p. 70.
3
    Inorganic clays of high plasticity, fat clays. Braja M. Das, p. 70.
4
    Inorganic silts, very fine sands, rock flour, silty or clayey fine sands. Braja M. Das, p. 70.
                                                                 Peer Review of Stantec Consulting Services, Inc.
                                          Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                     Tennessee Valley Authority - Office of the Inspector General
                                                    August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                        • Page 13
       angles are justified for more critical reaches of the dike system and result in a
       lower factor of safety than is customarily accepted.

       Marshall Miller is not suggesting that a stability failure is imminent under the
       existing conditions, but rather that the margin of safety along certain sections of
       the dike system are less than a factor of safety of 1.47 suggests. The significance
       of this observation is dependent on the approach and conservatism that is applied
       in the design of more immediate stability enhancements to the dike system (i.e.,
       the interim stability enhancements that might be designed based on drained
       analyses).

    o While Stantec classified the foundation zones between and proximate to Station
       125+70 and Station 134+30 as sandy, roughly one-half of the laboratory test
       results indicated the material was silty sand with greater than 40 percent fines
       content. The fines content of the sandy material and the prevalence of standard
       penetration tests blow counts equivalent to WOH or WOR indicate that the
       effective friction angle could be quite low. Correlations used to determine
       effective friction angle based on standard penetration tests blow counts generally
       indicate a lower-bound friction angle of about 25 degrees. Figure 5.7 from
       Duncan and Wright (2005), a reference from the Stantec report, is an example
       correlation that indicates a lower-bound friction angle of about 25 degrees for
       coarse-grained soils. The applicability of this correlation is questionable,
       especially given the overall fineness of the foundation deposit between Station
       125+70 and Station 134+30, the absence of a measurable blow count in many
       instances, and the consistency reflected by the cone penetrometer test profiles.

•   The Stantec report states that past shallow sliding of the downstream face of Dike C
    was reported in the project records; however, the locations of the past slide(s) were
    not provided.

•   The Kingston Dike C site is located within a region with known moderate seismic
    risk. However, no seismic stability evaluations were included in the Stantec Dike C
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 14
            Report. It is Marshall Miller’s professional opinion that seismic issues warrant more
            thorough consideration.

       •    Stantec used a bathymetric survey that did not reflect current conditions. The survey
            was dated March 10, 2009. Due to changes in river hydraulics and dredging
            activities, the March 2009 survey may not accurately reflect current conditions.

7.2.       RECOMMENDATIONS
       Based on the findings described above, Marshall Miller has developed the following list
of recommendations for consideration:

       •    Marshall Miller advocates the use of location-specific shear strength parameters for
            the key material layers, based on data obtained at and proximate to the dike sections
            that are more critical with respect to (1) geometric configuration, (2) seepage
            conditions, (3) material classification, and (4) the relative consistency of the materials
            as indicated by the in-situ testing, particularly for the highly variable foundation soils.
            It is important to characterize the shear strengths (drained and undrained) of key
            materials from a more local or discrete perspective, rather than a site-wide
            perspective, such that the more critical reaches of the dike system are identified and
            appropriately stabilized.

       •    Stantec should establish shear strength properties with the degree of
            confidence/conservatism normally applied from a design perspective.

       •    TVA should document the areas where slides occur on record drawings, such that the
            information is part of the pre-inspection documentation reviewed by inspectors of the
            KIF wet ash disposal facility.

       •    TVA has developed a methodology for TVA’s seismic assessments of closed coal
            combustion products facilities. TVA should take appropriate actions to apply these
            methodologies.
                                                                 Peer Review of Stantec Consulting Services, Inc.
                                          Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                     Tennessee Valley Authority - Office of the Inspector General
                                                    August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                        • Page 15

•   The existing ground surface (exposed or submerged) downstream of the dike system
    should be verified and potential changes related to dredging activities in the Watts
    Bar Lake area be evaluated and accounted for.
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                 Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                           August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 16

Item 8:        SEEPAGE ANALYSES

       Marshall Miller reviewed the results of Stantec’s Dike C seepage analyses, including the
material properties, boundary conditions, and pool elevations that were analyzed for each of the
generalized subsurface/geotechnical cross-sections. In general, it is Marshall Miller’s opinion
that Stantec performed a reasonable scope of investigation to support the seepage analyses for
the portion of Dike C covered by its report, and applied appropriate investigative methods and
evaluation techniques. More specifically, however, with regard to the available test boring and
cone penetrometer test information, there is a lack of information on seepage and material
conditions nearer the downstream toe of Dike C. Marshall Miller recognizes that access on the
downstream slope and along the toe of the starter dike is restrictive and might have impeded
exploration of the area. Nevertheless, the lack of information on seepage and material conditions
nearer the downstream toe causes uncertainty with the study and its associated conclusions and
opinions about the Dike C conditions.

8.1.     FINDINGS
       In Marshall Miller’s opinion, the seepage analyses methodology applied by Stantec was
appropriate and reasonable, based on a review of the Dike C Report and supporting
documentation. However, Marshall Miller noted the following seepage modeling aspects and
areas that might contribute to more severe seepage conditions than reflected by the Stantec
evaluations:

   •   The starter dike was reported to have been raised on different occasions, which is
       supported by the multiple layers of ash and clay materials shown in the test boring logs.
       However, the seepage models did not incorporate this layering in the dike system cross
       section. The variability of the materials comprising the dike system introduce
       considerable uncertainty into the seepage modeling, and reinforces the need to compare
       the modeling results with the subsurface data (piezometric data, moisture content
       profiles, cone penetrometer test pore pressure profiles, visual descriptions of recovered
       samples, geotechnical index data, etc.)
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                 Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                           August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                               • Page 17

   •   There were multiple instances where piezometer readings indicated higher phreatic
       surfaces and porewater pressure contours than reflected by the seepage modeling results.
       These included the following:

          o The piezometer readings for PZ-10(U).

          o The piezometer readings for PZ-14(U).

          o The piezometer readings for PZ-18(U).

   •   The calculated exit gradient and factor of safety against piping were higher and lower,
       respectively, than recommended in the USACE Engineering Manual EM 1110-2-1901.
       Stantec did not provide recommendations to address the high exit gradient or the low
       factors of safety against piping.

   •   Piezometers were not installed at the geotechnical cross-sections at Station 138+27 and
       Station 149+14; therefore, there is no way to verify the accuracy of the Seep/W model
       analyses at these locations. Stantec’s report does not explain why piezometers were not
       installed at these slope stability sections, nor how the predicted seepage conditions were
       validated absent this piezometric data.

8.2.    RECOMMENDATIONS
       Based on the findings described above, Marshall Miller has developed the following list
of recommendations for consideration:

   •   The seepage model for each section should be adjusted to represent the actual piezometer
       readings. As a general principle, whenever field data is available, it should be used to
       produce models that better reflect the actual site conditions.

   •   According to Stantec, the exit gradient and corresponding factor of safety against piping
       will be addressed in the buttressing plan. Stantec should follow through and evaluate the
       exit gradient and corresponding factor of safety against piping in the buttressing plan.
                                                                     Peer Review of Stantec Consulting Services, Inc.
                                              Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                        August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 18

•   Additional piezometers should be installed at cross-sections located at Station 138+27
    and Station 149+14 to provide site-specific data for calibration and validation of the
    predicted seepage conditions at these cross-sections.
                                                                          Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability for Dike C (KIF)
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                             August 2010 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 19

Item 9:          DIKE C EMBANKMENT REMEDIATION WORK PLAN

       Marshall Miller reviewed Stantec’s preliminary analyses of a slope buttress system for
Dike C. While a formal peer review of the slope buttress system design was not performed,
findings from the peer review of the Dike C slope stability should be considered during the
development of the phases comprising the final buttressing configuration. The preliminary Dike
C buttress system reviewed by Marshall Miller did not include the final buttress system
configuration, the slope stability calculations prepared to evaluate the preliminary or final
buttress design, or the methods for improving the low factor of safety against seepage piping
through the embankment.

9.1.     COMMENTS AND SUGGESTIONS
       Based on our review of the preliminary information supplied by Stantec, Marshall Miller
offers the following comments and suggestions:

   •   The process and rate of constructing an embankment buttress system to stabilize the
       raised portion of Dike C could inadvertently decrease (temporarily or otherwise) the
       stability of the Dike C embankment under certain failure modes. Accordingly, the
       construction sequence and the evolving buttress configuration may warrant the evaluation
       of interim construction conditions, and not just the planned final (stabilized)
       configuration.

   •   The lack of subsurface information near the downstream toe of the starter dike, which is
       within the Watts Bar Reservoir, should be recognized by Stantec as an area of uncertainty
       that could affect the stability of the slope buttress system itself, especially if the rate of
       the buttress system construction prompts increased pore pressures within the loose finer-
       grained foundation soils.

   •   The weaker links in the dike containment system (i.e., location-specific approach) should
       be specifically identified and evaluated when assessing stabilization plans to ensure that
       the more marginal reaches of the dike system are stabilized to an appropriate margin of
       safety.
APPENDIX A
PAGE 1 OF 1
APPENDIX B
Page 1 of 27
APPENDIX B
Page 2 of 27
APPENDIX B
Page 3 of 27
APPENDIX B
Page 4 of 27
APPENDIX B
Page 5 of 27
APPENDIX B
Page 6 of 27
APPENDIX B
Page 7 of 27
APPENDIX B
Page 8 of 27
APPENDIX B
Page 9 of 27
APPENDIX B
Page 10 of 27
APPENDIX B
Page 11 of 27
APPENDIX B
Page 12 of 27
APPENDIX B
Page 13 of 27
APPENDIX B
Page 14 of 27
APPENDIX B
Page 15 of 27
APPENDIX B
Page 16 of 27
APPENDIX B
Page 17 of 27
APPENDIX B
Page 18 of 27
APPENDIX B
Page 19 of 27
APPENDIX B
Page 20 of 27
APPENDIX B
Page 21 of 27
APPENDIX B
Page 22 of 27
APPENDIX B
Page 23 of 27
APPENDIX B
Page 24 of 27
APPENDIX B
Page 25 of 27
APPENDIX B
Page 26 of 27
APPENDIX B
Page 27 of 27
APPENDIX C
Page 1 of 7
APPENDIX C
Page 2 of 7
APPENDIX C
Page 3 of 7
APPENDIX C
Page 4 of 7
APPENDIX C
Page 5 of 7
APPENDIX C
Page 6 of 7
APPENDIX C
Page 7 of 7
APPENDIX D
Page 1 of 6
APPENDIX D
Page 2 of 6
APPENDIX D
Page 3 of 6
APPENDIX D
Page 4 of 6
APPENDIX D
Page 5 of 6
APPENDIX D
Page 6 of 6
